Thomas G. Hungar
Direct: +1 202.887.3784
Fax: +1 202.530.4213
THungar@gibsondunn.com

September 4, 2020

VIA ELECTRONIC FILING

The Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Changzhou Sinotype Technology Co., Ltd. v. Rockefeller Technology
Investments (Asia) VII, No. 20-238

Dear Mr. Harris,
I am counsel of record for respondent in the above-captioned case.
Respondent hereby consents to the timely filing of petition-stage amicus curiae
briefs by any person, entity, or organization supporting either or neither party,
provided that the amicus curiae brief otherwise complies with the Rules of this
Court.
Respectfully submitted,
_/s/ Thomas G. Hungar___
Thomas G. Hungar

cc:

Theodore Joel Folkman
Counsel for Petitioner

